                                       NATIONAL SCIENCE FOUNDATION
                                       OFFICE OF INSPECTOR GENERAL
                                         OFFICE OF INVESTIGATIONS

                                                                                 -
                          CLOSEOUT MEMORANDUM

Case Number: A03010005
                                                                    11        Page 1of 1



    NSF received a proposal1 t h a t was alleged to include text plagiarized from the
    Preface of a book. The P I admitted to copying the text and identified other text i n
    her proposal t h a t had not been properly attributed. Our Report of Investigation
    was provided to NSF's Deputy Director, who made a finding of research misconduct.
    This Memorandum, our Report of Investigation, and the NSF Deputy Director's
    letter reflecting his decisions constitute the closeout for this case. Accordingly, this
    case is closed




       l   (redacted).
                                  NATIONALSCIENCE FOUNDATION
                                      4201 WILSON BOULEVARD
                                     ARLINGTON, VIRGINIA 22230




      OFFICE OF M E
     DEPUTY DIRECTOR




        Re: Notice of Misconduct in Science Determination

Dear Dr.                                   .   ,
                                                        v   .
                                                                                                    -   --
       On or about July 25, 2002, you submitted a CAREER proposal to the National Science
Foundation ("NSF')entitled "
            As documented in the attached Investigative Report prepared by NSF's Office of
Inspector General ("OIG"), the proposal contained plagiarized text.



        Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification,
or plagiarism in proposing or performing research h d e d by NSF ..." 45 CFR $ 689.1(a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit." 45 CFR 5 689.1(a)(3). A finding of research misconduct
requires that:
       (1) There be a significant departure from accepted practices of the relevant research
           community; and
       (2) The research misconduct be committed intentionally, or knowingly, or recklessly; and
       (3) The allegation be proven by a preponderance of evidence.

45 CFR § 689.2(c).

         Your proposal contains verbatim and paraphrased text fi-om-severalsource documents.
 By submining a proposal to NSF that copies the ideas or words of another without adequate
 attribution, as described in the OIG Investigative Report, you miqresented someone else's
'work as your own. In addition, you failed to properly .acknowledge or credit the authors of the
                                                                                                              Page 2
                source documents in your proposal. . Your conduct unquestionably constitutes plagiarism. I
                therefore conclude that your actions meet the definition of "research misconduct" set forth in
                NSF's regulations.


                         Pursuant to NSF regulations, the Foundation must also determine whether to make a
                finding of misconduct based on a preponderance of the evidence. 45 CFR $ 689.2fc). After
                reviewing the Investigative Report and the University Committee Report, NSF has determined
                 that, based on a preponderance of the evidence, your plagiarism was knowing and constituted a
                 significant departure f b m accepted practices of the relevant research community. I am,
                 therefore, issuing a finding of research misconduct against you.


I                          NSF's regulations establish three categories of actions (Group I, iI, and m)that can be
                   taken in response to a finding of misconduct. 45 CFR §689.3(a). Gmup I actions include issuing
                   a letter of reprimand; conditioning awards on prior approval of particular activities from NSF;
                   requiring that an institution or individual obtain special prior approval of particular activities
                   from NSF; and requiring that an institutional representative certify as to the accuracy of reports
                   or certifications of compliance with particular requirements. 45 CFR $689.3(a)(1). Group II
                   actions include award suspension or restrictions on designated activities or expenditures;
                   requiring special reviews of requests for funding; and requiring correction to the research record.
                   45 CFR $689.3(a)(2). Group ID actions include suspension or termination of awards;
    ---pmhrbitions               on participation as NSF reviewers, advisors or consultants; and debarment or
                   suspension from participation in NSF programs. 4 ~ 6 8 9 3 & $ 3 ~ -                        -- -      -   -- - -



                        In determining the severity of the sanction to impose for research misconduct, I have
                considered the seriousness of the misconducti our determination that it was knowing; the
                determination that it was an isolated event and not part of a pattern; your willingness to accept
                responsibility for your actions; the contrition that you demonstrated during the course of the
                investigative process; and the actions that the University of North Dakota has already taken
                against you. I have also considered other relevant circumstances. 45 CFR 5 689.3 (b).


                       In light of these mitigatixig factors, I do not believe any additional action is warranted. I
                believe that this letter of reprimand, in conjunction with the actions already taken against you by.
                the University, adequately protect the government's interests.
                                                                                                          Page 3


                        Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
                of this decision, in writing, to the Director of the Foundation. 45 CFR §689.10(a). Any appeal
                should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
                Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, this
                decision will become final. For your information we are attaching a copy of the applicable
                regulations. If you have any questions about the foregoing, please call Eric S. Gold, Assistant
                General Counsel, at (703)292-8060.



                                                                    Sincerely,




                                                                    Deputy Director

.       .
                Enclosures
                - Investigative Report
    .       .   - 45 C.F.R. 689
        National Science
           Foundation
   Office of Inspector General




                 Confidential
            Report of Investigation
           Case Number A03010005

                        28 October 2004

CONFIDENTIAL

NSF OIG FORM
           2 2 (1103)
                ~
                                            Summary
                                                                           ..
       The Office of Inspector General (OIG) has concluded the subject plagiarized
text from multiple sources, including a book and published paper into her proposal.
As a result of its investigation, the subject's university found the subject committed
research misconduct. The university reprimanded her and took the following
actions: it required her proposals and manuscripts submitted before 31 Dec 04 to be
reviewed and approved by the Head of her Department; she must have a co-chair on
all committees which she chairs for a period of 2 years; she must make one or two
presentations annually a s part of the graduate assistant training course for the
duration of her employment a t the university; she must undergo formal training in
research ethics a t her own expense; her salary adjustment for FY 05 will be 1%
instead of 3%; and a letter of reprimand will be placed permanently in her
personnel file. Because we believe the subject's actions are sufficient to warrant 'a .
finding of misconduct, we recommend the National Science Foundation (NSF) send
a letter of reprimand to the subject informing her she has been found to have
committed research misconduct.                , .                        , .




                                         OIG's Inquiry
      We received a n allegation that a n NSF proposa1,l submitted by the subject2
contained text (approximately 13 lines) taken from the preface of a book.3 We sent
the subject a letter asking her to address the allegations of plagiarism. In the
subject's response, she admitted she failed to properly cite and distinguish the text
from the preface.4 In answering our questions, she also identified other text in her
proposal she had copied without proper attribution. The additional text was
approximately 15 lines copied from a published paper5 and a web ~ a g e . 6 ~ 7
                                                    *   .

       Based on the subject's response, we found there was sufficient substance to
this matter to refer it to the University. Consistent with our policy, we formally
referred the allegation to the subject's university for investigation.       . .


                                   The university's Actions
                                         In vestigation
      The Provost8 charged the university's Academic Integrity Committee (AIC) to
conduct the Investigation. Because the subject admitted to the copying, the

   1 (redacted). The proposal is included a s Appendix (A).
   2 (redacted).
   3 (redacted). See Appendix (B).
   4 Our letter to the subject and her response are Appendix(C).
   5 (redacted).
   6 (redacted).
   7 The additional sources are Appendix (F).
   8 (redacted).
university and subject agreed to waive the Inquiry required by the university policy.
Accordingly, the AIC conducted the Investigation and focused on assessing the
subject's intent. The AIC consulted with a n external expert (the expert)g familiar                 '


with the subject's field of science. The expert was to assess the experimental
portions of the subject's proposals10 for copied text, which, if present, the AIC
reasoned might indicate intellectual theft. The expert noted the proposals could
have used better referencing and attributions, but 'found no evidence of plagiarism
in the experimental sections.11
      In assessing the subject's intent, the AIC considered several facts to be
pertinent, including: how the subject prepared the proposal; the existence of other,
proper citations; and that she was willing to identify additional copied text when
requested.12 The AIC concluded the subject "knowingly included content in her
proposals without proper citations that would give credit to the rightful authors."l3
        The AIC acknowledged the seriousness of plagiarism and recommended
"reasonable sanctions that are appropriate to the seriousness of her research
misconduct."l4 It recommended (a) for 1year, the subject not be allowed to submit
any research proposals, nor act a s major professor for any graduate students
(including having a co-advisor assigned to her current graduate student); (b) for 2
years, the subject must have a co-PI on all proposals; (c) the subject must complete,
a t her own.expense, a training course on scientific ethics; (d) the subject will develop
and present to new faculty a course on scientific ethics and research misconduct; (e)
the subject receive a salary adjustment; (0 the subject receive a letter of reprimand
to become a permanent part of her personnel file.
                   Subject's Response to the AICs Investigation Report
       The subject thought there may have been some misunderstanding and
miscommunication during her interview by the AIC and, a s a result, the
recommended sanctions are too harsh.15 She specifically addressed most of the
criteria the AIC used to reach its conclusion. She said she "did not have the
intention to take credit from other's work,"lG and, therefore, herdaction did not meet
the university's definition of plagiarism. She disagreed with the assessment of her
intent as knowing because she was unaware of a requirement to cite "descriptive




   "redacted). '
   10 I n addition to the proposal under question, the expert also examined a previous proposal
submitted to NSF (redacted) and a later proposal submitted to the (redacted).        ,
   11 The expert's assessment is Appendix (E).
   12 The AIC's Final Report is Appendix (F). See p. 2 for a description of the six facts the AIC
considered.
   13 Appendix (F), p. 2
   14 Appendix (F), p. 2.
   15 The subject's response to the AIC report and recommendations is Appendix (GI.
   16 Appendix (G), p. 1.
content."l7 She explained the difference between plagiarism'in the United States
and China arguing her action would not be considered plagiarism in China.18
        Regarding the proposed sanctions,l9 she particularly objected to (a), (b), and
(0 a s being overly harsh. She was concerned recommendations (d) and (0 could
permanently damage her academic reputation, and hence, her future career. She
expressed sincere remorse and gave her assurance this would not happen again.


        The Provost noted that while the subject's actions may not constitute
plagiarism in China, "since [the subject] now works in our culture, clearly she must
use our practices."20 He consulted with the Dean of Science and Mathematics and
the subject's Department Chair. He noted the subject's cooperation and remorse.
He concurred with the subject that the AIC recommended extremely serious
sanctions, so he accepted them with modification. He imposed the following
sanctions: (1) all research proposals and manuscripts submitted by the subject will
undergo special review by her Chair until the end of 2004; (2) she must have a co-
chair on all graduate committees for 2 years; (3) she will make annual presentations
io g a d u a t e students as long a s she is employed a t the university; (4)she must
undergo formal training in research ethics a t her own expense; (5) she will receive a
reduced salary for N 2005; and (6) she will receive a letter of reprimand which will
permanently remain in her personnel file.


                                      OIG's Assessment
       We believe the AIC's Investigation was accurate and complete in addressing
the allegations, and the university followed reasonable procedures; therefore, we
accept them in lieu of doing our own investigation. NSF's Research Misconduct
Regulation states that a finding of misconduct requires:
                                                                                      '

       (1) There be a significant departure from accepted practices of the
       relevant research community; and (2) The research misconduct be
       committed intentionally, or knowingly, or recklessly; and (3) the
       allegation be proven by a preponderance of the evidence.21


      The subject admitted copying approximately 28 lines of text from three
sources-a book, a paper, and a web page-into her proposal. The expert, AIC, and
                              4   '




   17 Appendix   (G), p. 1.
   18 The  subject is a native of China and received her education (including her Ph.D.1 and
professional training in China (she was a n Associate Research Professor when she left China).
However, beginning with her post-doctoral work in 1997, she has been in the US and carrying out
research using US standards.
    19 The AIC's recommendations are listed on p. 2 of this ROI and on pp. 2-3 of Appendix (F).
    20 The Provost's adjudication, Appendix (H), cover letter.
    21 45 CFR 5 689.2k).
university adjudicator agreed the subject's copying constituted the use of verbatim
text without appropriate attribution, but was not intellectual theft. We concur with
that assessment. The AIC "acknowledge[dl the seriousness of plagiarism, research
misconduct, and the importance of the academic community to abide by the
accepted policies and procedures regarding scientific ethics and honesty."22 We
conclude the preponderance of the evidence indicates the subject failed to provide
proper attribution when she copied 28 lines of text and, in doing so, significantly
departed from the accepted standards.23


       As noted above, the AIC used several factors to assess the subject's intent. It
concluded the subject acted knowingly. We agree with the AIC's analysis and
conclusion. The subject acted knowingly when she copied words from the three
sources into her proposal. Although the AIC and expert focused on the
experimental portions of the subject's proposals, there was no evidence to suggest a
pattern of copying in other submissions. A preponderance of evidence supports the
conclusion that the subject acted knowingly when she copied approximately 28 lines
of text into her proposal and, therefore, we conclude the subject committed Research
Misconduct.


                                OIG's Recommended Disposition                 '




       In deciding what actions are appropriate when making a finding of research
misconduct, NSF must consider several factors. These factors include how serious
the misconduct was; the degree of culpable intent; whether it was a n isolated event
or part of a pattern; its impact on the research record; and other relevant
circumstances.24
       As we noted above, we concluded the subject knowingly plagiarized text,
which is a significant departure from the accepted practice in the subject's
community. Although this case does not approach the seribusness of some past
cases, we believe the subject's actions, copying 28 lines of unattributed text,
requires that NSF make a finding of Research Misconduct. We agree with the AIC
that there was no apparent pattern of misconduct by the subject and that there
appears to be no impact on the research record. The adjudicator noted the subject's
cooperation with our Inquiry and the university Investigation, her genuine remorse,
and, consequently, modified the AIC's recommendations. We concur with the
adjudicator that the subject's cooperation and other actions-she disclosed material
she had copied from the paper and web page and of which we were unaware; she
took responsibility her copying; and she forewent the university's Inquiry to help

    22 Appendix (F),p. 2.
    23 While the adjudicator did not specifically state the subject's action was a significant departure
from accepted practices, given the sanctions he took, it seems reasonable he concluded so.
Regardless, we conclude the subject's action is a significant departure from accepted standards.
    24 45 CFR § 689.3(b).
resolve the matter more quickly-are mitigating factors. Given the thoroughness of
the university's actions, particularly the requirement that the subject's proposals
receive special review by her Chair'25 we believe the university's actions also serve
to protect the government. Accordingly, we recommend the NSF send the subject a
letter of reprimand informing her she has committed research misconduct.26


                           Subiect's Response to OIG's Draft ROI
       The subject responded to our draft ROI. She made several points, but none of
them alters our conclusions or recommendations. She disagreed with the number of
lines she copied from the preface; she counted the lines in her proposal rather than
in the source dociment. She speculated the expert was not given her entire
proposal or misunderstood something a s she felt she adequately explained the role
of other researchers. She reiterated her concern about miscommunication between
her and the AIC and noted she did not get a n opportunity to correct any
misunderstanding before the AIC reached its decision. She disagreed with the
AIC's assessment of her intent as knowing and disagreed with our assessment of
her act as a significant departure; she said she only made a mistake, not committed
research misconduct. She emphasized she has learned her lesson and she is
informing her students about ethical issues in research and classes.




    25, Although it was imposed by the university, not the government, this is a Group I1 Action. See
45 CFR §689.3(a)(2)(ii).
    26 This is a Group I Action, §689.3(a)(l)(i).
